Department of Homeland Security
   Ofﬁce of Inspector General


              Effectiveness of TSA's Surface 

            Transportation Security Inspectors





OIG-09-24                                  February 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      February 5, 2009

                                         Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the Transportation Security
Administration’s Surface Transportation Security Inspectors. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................5


     Surface Inspector Assessment and Domain Awareness Initiatives
      Have Been Effective ...................................................................................................5 

     Recommendations........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


     Additional Surface Inspectors Are Needed to Perform Future Tasks and Enhance
      Understaffed Field Offices........................................................................................13 

     Recommendations........................................................................................................16 

     Management Comments and OIG Analysis ................................................................17 


     Command Structure Inhibits Surface Inspector Effectiveness ....................................18 

     Recommendations........................................................................................................23 

     Management Comments and OIG Analysis ................................................................23 


Appendixes
     Appendix A:          Purpose, Scope, and Methodology........................................................26 

     Appendix B:          Management Comments to the Draft Report ........................................27 

     Appendix C:          Freight Rail Security Action Items........................................................33

     Appendix D:          Major Contributors to this Report .........................................................36 

     Appendix E:          Report Distribution ................................................................................37 


Abbreviations
     AFSD                Assistant Federal Security Director 

     BASE                Baseline Assessment for Security Enhancement 

     DHS                 Department of Homeland Security 

     FSD                 Federal Security Director 

     hazmat              hazardous materials       

     SAI                 Security Action Item

     STSIP               Surface Transportation Security Inspection Program

     TIH                 Toxic Inhalation Hazard 

     TSA                 Transportation Security Administration         

     TSI                 Transportation Security Inspector – Surface 

     TSOC                Transportation Security Operations Center 

     VIPR                Visible Intermodal Prevention and Response 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  The Aviation and Transportation Security Act gave the
                  Transportation Security Administration (TSA) the responsibility to
                  secure all modes of transportation in the United States. TSA created
                  the Surface Transportation Security Inspection Program in 2005 to
                  provide oversight and assistance to surface transportation modes.
                  Currently, the program’s Transportation Security Inspectors –
                  Surface act as assessors, advisors, and liaisons, primarily in the mass
                  transit and freight rail modes. In the future, TSA also expects the
                  inspectors to enforce regulations and monitor progress on grant
                  projects. Additionally, they may eventually work in pipeline and
                  highway modes. The Implementing Recommendations of the 9/11
                  Commission Act of 2007 (the 9/11 Commission Act) mandated that
                  we review the performance and effectiveness of the Transportation
                  Security Inspectors – Surface, review whether there is a need for
                  additional inspectors, and make other recommendations based on
                  our analysis.

                  TSA is improving security in the mass transit and freight rail
                  modes through the inspection program. Inspectors help bus and
                  passenger rail stakeholders identify security gaps through Baseline
                  Assessment for Security Enhancement reviews. They help reduce
                  the risk that Toxic Inhalation Hazard shipments pose to High
                  Threat Urban Areas through Security Action Item reviews. They
                  increase TSA’s domain awareness by producing station profiles
                  and by acting as liaisons between the Transportation Security
                  Operations Center and transportation systems. They also
                  participate in Visible Intermodal Prevention and Response
                  exercises, which provide an unannounced, high-visibility presence
                  in a mass transit or passenger rail environment.

                  TSA faces important challenges in improving the effectiveness of
                  the Transportation Security Inspectors – Surface. As TSA expands
                  its presence in non-aviation modes, it must look critically at how it
                  is deploying resources. TSA must continue to assess how planned
                  exercises can better use the inspectors and their activities. The
                  program appears understaffed for the long term and an aviation-
                  focused command structure has reduced the quality and morale of
                  the workforce.

             Effectiveness of TSA’s Surface Transportation Security Inspectors

                                          Page 1
Background
                   The Aviation and Transportation Security Act gave the Transportation
                   Security Administration (TSA) the responsibility to secure all modes of
                   transportation.1 In 2005, TSA created the Surface Transportation Security
                   Inspection Program (STSIP) to provide oversight and assistance to surface
                   transportation modes. Transportation Security Inspectors – Surface (TSIs)
                   have the authority to enforce security regulations and to help stakeholders
                   improve their security in the surface modes, which include the mass
                   transit, freight rail, highway, and pipeline sectors. In May 2008, TSA
                   began expanding its force from 100 inspectors at 19 field offices to 175
                   inspectors at 54 field offices.

                   Although TSIs were originally created to be compliance inspectors for
                   mass transit and freight rail, Congress and the Department of Homeland
                   Security (DHS) have enacted several regulations, directives, and
                   recommendations that have expanded TSI responsibilities (see figure 1
                   below). Currently, TSIs act as assessors, advisors, and liaisons, primarily
                   in the mass transit and freight rail modes. In the future, TSA also expects
                   TSIs to enforce regulations and help monitor the progress of grant
                   projects. Additionally, TSIs may eventually work in pipeline and highway
                   modes.

                   In mass transit systems, TSIs’ primary responsibility is to perform
                   Baseline Assessment for Security Enhancement (BASE) reviews. TSIs
                   collect detailed information regarding a bus or mass transit rail system’s
                   implementation of TSA and Department of Transportation recommended
                   security measures, and this information aids TSA in allocating transit
                   grant funds. TSIs help increase TSA’s knowledge of bus and rail systems
                   by responding to security incidents and by producing detailed profiles of a
                   station’s security features. TSIs act as regional liaisons to transit system
                   managers and security directors, and can discuss their use of grant funds.
                   They also participate on Visible Intermodal Prevention and Response
                   (VIPR) teams, which provide an unannounced, high-visibility presence in
                   a mass transit or passenger rail environment.

                   In the freight rail mode, TSIs perform Security Action Item (SAI) reviews
                   of freight railroads’ compliance with TSA and Department of
                   Transportation recommended security measures for the safeguarding of
                   Toxic Inhalation Hazard (TIH) shipments. TSIs interview employees and
                   perform onsite assessments of freight rail yards to observe operations.


1
    49 U.S.C. 114(d).



                        Effectiveness of TSA’s Surface Transportation Security Inspectors

                                                     Page 2
TSIs inspect loaded TIH shipments in High Threat Urban Areas, and
record their location and how long they were left unattended.

Figure 1. Regulations, Directives, and Recommendations on TSI Roles
                       Documents Outlining the Role of TSIs

October 18, 2004: Department of Homeland Security Appropriations Act of 2005.
Established the Surface Transportation Security Inspection program by supporting the
deployment of up to “100 federal rail compliance inspectors.”

January 4, 2005: Department of Homeland Security Appropriations Act of 2006.
Amended inspector’s compliance role, directed rail inspectors to “identify coverage
gaps” in security.

December 21, 2006: TSA Rail Security Regulations (pending final approval).
Established TSA’s authority to access transit systems and their records without advance
notice.

May 21, 2007: TSA’s Transportation Sector Specific Plan. Set forth inspectors’ roles
as advisors, assessors, and liaisons in the mass transit and freight rail modes. Inspectors
are to conduct freight rail and mass transit security reviews, and participate in Visible
Intermodal Prevention and Response teams.

August 3, 2007: Implementing Recommendations of the 9/11 Commission Act of
2007. Defined the inspector’s domain as surface, including bus, highway, and pipeline
modes. Gave inspectors the ability to issue citations in the event of stakeholder
noncompliance with regulations.

June 2008: TSA’s Administration and Coordination of Mass Transit Security
Programs (DHS Office of Inspector General report). Recommended that TSIs
provide TSA updates on the status of grant projects.



TSIs serve as field personnel for numerous TSA components (see
figure 2). TSA’s Transportation Sector Network Management, which sets
policy over all modes of transportation and formulates security strategies,
relies heavily on TSIs to assist with stakeholder relations and security
assessments. The Office of Law Enforcement operates the VIPR program
in which TSIs participate. The Transportation Security Operations Center
(TSOC) uses TSIs to respond to security incidents on surface modes and
gather first-hand information. Within TSA’s Office of Security
Operations, the Compliance Program at headquarters manages TSI
priorities, while the Federal Security Directors (FSDs) in the field manage
the TSIs themselves.




    Effectiveness of TSA’s Surface Transportation Security Inspectors

                                 Page 3
Figure 2. Organization of TSI Responsibilities




TSIs are organized into 12 primary field offices and 42 satellite offices
(see Figure 3). Each primary field office contains a supervisory TSI,
designated as an Assistant Federal Security Director – Surface (AFSD–
Surface), who is responsible for inspectors in their office and provides
some oversight for inspectors in nearby satellite offices. TSA generally
deploys TSIs in cities with a major mass transit system or significant
freight rail activity.

Figure 3. TSI Field Offices




   Effectiveness of TSA’s Surface Transportation Security Inspectors

                                Page 4
Results of Review
          The Aviation and Transportation Security Act of 2001 gave TSA authority
          and responsibility for security on all modes of transportation. Since 2005,
          TSA has increased its efforts to mitigate the vulnerability of mass transit
          and freight rail systems across the United States with the STSIP. The
          STSIP has been effective in its assessment and domain awareness
          initiatives. As TSA expands its presence in non-aviation modes, it must
          look critically at how it is deploying resources. TSA needs to assess how
          VIPR exercises can better use TSIs and their activities. The program
          appears understaffed for the long term, and an aviation-focused command
          structure has reduced the quality and morale of the workforce.

     Surface Inspector Assessment and Domain Awareness Initiatives
     Have Been Effective
          TSIs’ assessment and domain initiatives have been effective and helped
          the program achieve many of its goals. TSIs are successfully improving
          security through BASE assessments, SAI reviews, and liaising between
          the TSOC and transportation systems. TSIs contribute to VIPR exercises,
          but TSA could do more to incorporate TSI activities with these exercises.

                  BASE Assessments

                  In the mass transit mode, TSIs perform BASE assessments that
                  help bus and passenger rail stakeholders identify security gaps. A
                  BASE assessment is composed of a series of interviews involving
                  more than 190 security questions. Stakeholder responses receive
                  numerical values and, based on these scores, the mass transit
                  agency receives an overall score for each of TSA’s Six Transit
                  Security Fundamentals (see figure 4). To validate responses, TSIs
                  review documents, question personnel, and observe security
                  measures within the transit system. During a BASE review, TSIs
                  frequently work with the local agency security director to create or
                  improve plans and protocols, and advise stakeholders on ways to
                  address vulnerabilities.




             Effectiveness of TSA’s Surface Transportation Security Inspectors

                                          Page 5
     Figure 4. TSA’s Six Transit Security Fundamentals
     TSA’s Six Transit Security Fundamentals
     1. Protection of high-risk/high-consequence, underwater/underground assets and
        systems.
     2. Protection of other high-risk/high-consequence assets identified through
        system-wide risk assessments.
     3. Use of visible, unpredictable deterrence.
     4. Targeted counterterrorism training for key frontline staff.
     5. Emergency preparedness drills and exercises.
     6. Public awareness and preparedness campaigns.

     TSA uses BASE assessments to increase its awareness of the
     Nation’s mass transit security posture. TSA also can set policy
     goals, identify areas for improvement, and formulate
     recommendations. As a result of BASE assessments, TSA has
     produced 55 Smart Security Practices, which give specific
     examples of transit systems that have implemented best practices.
     TSA plans to use BASE assessments to help formulate future
     security regulations and allocate asset-specific grants.

     Although BASE assessments are voluntary, they have led to
     security improvements in the mass transit systems reviewed. TSIs
     have performed 79 BASE assessments of the top 100 transit
     agencies. As of May 2008, TSIs have revisited two systems. The
     average scores of revisited systems show improvement in five of
     the six Transit Security Fundamentals (see figure 5).




Effectiveness of TSA’s Surface Transportation Security Inspectors

                             Page 6
       Figure 5. Transit Systems’ BASE Scores for TSA’s Transit Security
       Fundamentals
     100

      90

      80

      70
                                                                           Initial
      60
                                                                           Assessment
Score 50                                                                   Revisit
      40

      30

      20

      10

       0
              #1        #2         #3         #4        #5            #6

                         Transit Security Fundamental


       SAI Reviews

       In the freight rail mode, TSIs perform Security Action Item
       reviews focused on reducing the risk that TIH shipments pose to
       High Threat Urban Areas. TIH refers to hazardous materials
       (hazmat) that can cause serious harm or death through inhalation.
       These materials, most commonly chlorine gas and anhydrous
       ammonia, have various uses and are frequently transported in large
       tank cars (see figure 6). The department has identified TIH
       materials as high risk because, in contrast to normal hazmat, an
       accidental or intentional airborne release has the potential to harm
       large, widespread populations. In November 2006, Secretary
       Chertoff set a goal to reduce the risk posed by transporting TIH by
       rail in High Threat Urban Areas by 50% in 2008.




  Effectiveness of TSA’s Surface Transportation Security Inspectors

                               Page 7
                       Figure 6. Chlorine Tank Car




                       To evaluate freight rail risks, TSA created a five-phase SAI
                       assessment program. In Phases I-III, TSIs collect data to assess
                       freight railroads’ implementation of 24 recommended security
                       practices (see appendix C). TSIs evaluate a freight company’s
                       security systems and plans, employee security and identification
                       procedures, and other practices. In Phases IV-V, TSIs visit freight
                       railroad locations to assess employee TIH awareness, verify the
                       location of loaded TIH cars, and determine whether loaded cars are
                       attended. TSA uses the data to calculate the risk posed by TIH in a
                       given High Threat Urban Area.

                       As a result of SAI review, TSIs make recommendations to
                       stakeholders whose compliance is voluntary. TSA and TSIs
                       encourage freight rail operators to expedite the movement of trains
                       transporting rail cars carrying TIH materials, establish secure
                       storage areas, position cars where the most practical protection can
                       be provided, and reduce the amount of time that TIH cars are
                       stationary or unattended. TSIs reported that stakeholders are
                       cooperative and welcome recommendations that improve security.

                       TSA officials said that information gathered from SAI reviews will
                       drive the formulation of regulations. One regulation pending
                       would require rail stakeholders in High Threat Urban Areas to
                       enhance their chain of custody and control measures for TIH.2 If
                       the regulation is approved, TSA could impose fines for
                       noncompliance through an administrative process based on the
                       results of its inspections.

2
    49 CFR 1580



                  Effectiveness of TSA’s Surface Transportation Security Inspectors

                                               Page 8
     The SAI review process has led to a reduction in the risk posed to
     High Threat Urban Areas. As of May 2008, TSIs have performed
     more than 3,000 SAI reviews of 500 freight rail facilities in 60
     High Threat Urban Areas. The results of the reviews showed that
     TIH cars were left unattended 13% fewer hours and overall risk
     was reduced by 54%. TSA officials report that they expect to
     maintain this reduction and achieve the Secretary’s goal of
     reducing current risk by 50%, by the end of 2008.

     Aiding Security Incident Response

     TSIs are enhancing TSA’s domain awareness for incident response
     by responding to information requests from the TSOC and
     producing station profiles. In the event of a security incident or
     other emergency, TSIs provide specific, local information for
     headquarters personnel. During these incidents, TSIs act as a liaison
     between the TSOC and the surface transportation systems. TSOC
     officials said that before the creation of the STSIP, it was difficult
     for them to collect incident information in the surface domain.

     The TSOC relies on the TSIs to provide rapid, accurate situational
     awareness during a surface transportation emergency. TSIs
     maintain relationships with more than 2,000 stakeholders
     nationally, including transit systems, freight rail operators, local
     law enforcement, and other stakeholders. TSOC representatives
     can contact a TSI at any hour, and can request that the TSI contact
     the appropriate local officials who have firsthand knowledge of the
     incident. The TSOC also can request that the TSI respond to the
     scene of an incident to ensure timely and accurate information
     reporting. Officials at the TSOC said that there are roughly ten
     incidents daily in which they rely on the TSIs to provide
     information. TSIs have been very successful in providing
     requested information: TSOC officials report a 100% response rate
     to their information requests.

     TSIs also produce station profiles that emergency responders can
     use to understand the layout of a mass transit station. These
     detailed reports catalog a station’s specific physical characteristics
     and security elements. Each profile includes photographs, maps,
     and points of contact. As of June 2008, TSIs have profiled 1,810
     of the approximately 3,600 mass transit stations in the United
     States. TSIs generally profile the most critical stations first.




Effectiveness of TSA’s Surface Transportation Security Inspectors

                             Page 9
     Visible Intermodal Prevention and Response Teams

     TSIs participate in VIPR exercises, which provide an
     unannounced, high-visibility presence in a mass transit or
     passenger rail environment. TSIs mostly act as patrollers who
     monitor suspicious activity and whose presence may deter terrorist
     activity. In some locations, the AFSD–Surface coordinates the
     exercise with the local mass transit stakeholder. In other locations,
     TSIs informally educate other VIPR participants about the surface
     mode or an individual transit system.

     TSIs add value to VIPR exercises, but not as much as other
     participants (see figure 7). TSIs have less training and experience
     in behavioral detection than Behavior Detection Officers and,
     unlike Federal Air Marshalls or transit police, have no law
     enforcement authority. Unlike Transportation Security Officers or
     canine teams, TSIs have no training in passenger screening and are
     unable to detect explosives. However, TSIs are usually more
     familiar with a transit system than many participants and do fulfill
     a VIPR deployment’s ultimate purpose of providing a visible,
     unpredictable presence in a mass transit environment.

     Figure 7. VIPR Participants and Capabilities
         VIPR             Visible     Behavior     Domain            Arrest     Explosives   Screening
       Participant       Presence     Detection   Familiarity       Authority   Detection    Capability

          TSIs             Yes          Some          Yes              No          No           No

     Transportation
        Security           Yes          Some         Some              No          No           Yes
        Officers
       Behavior
       Detection           Yes          Yes          Some              No          No           Yes
        Officers
       Federal Air         No
                                        Yes          Some             Yes          No           No
        Marshalls        (covert)

      Canine Teams         Yes          Some          Yes              No          Yes          No


      Transit Police       Yes          Some          Yes             Yes          No           No



     In May 2008, TSA began hiring 75 new TSIs that were specifically
     appropriated for participation in VIPR teams. However, to
     maximize these resources, new hires will not participate
     exclusively in the VIPR program. Instead, TSA will implement a
     program-wide increase in TSI VIPR activity, resulting in



Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 10
     participation equivalent to that of 75 full-time employees. The
     STSIP plans to increase the time that TSIs spend on VIPRs from
     approximately 2% to 25%.

     The STSIP will have difficulty meeting this goal. TSA’s Office of
     Law Enforcement, not the STSIP, primarily initiates and controls
     VIPRs. In a given month, the Office of Law Enforcement plans
     approximately 15 VIPR exercises, which equals about 120 hours of
     monthly VIPR activity. With 175 inspectors, the STSIP has
     approximately 28,000 total man-hours of activity each month. Even
     if ten TSIs attended every VIPR exercise for a full day, the STSIP
     would spend only 1,200 hours or 4% of its time on VIPR exercises.
     The Office of Law Enforcement does not operate enough VIPRs for
     TSIs to dedicate 25% of their time to this activity.

     TSA is working to integrate TSI initiatives with VIPR operations.
     Although the VIPR program Concept of Operations states that
     VIPR exercises should involve “utilizing screening, inspections
     and law enforcement in coordinated activities,” the TSIs’ role is
     limited to planning, educating, and patrolling. TSIs report that
     they feel underutilized during exercises.

     TSA would benefit if VIPR exercises integrated additional TSI
     activities and expertise that do not constitute regulatory
     compliance or comprehensive inspections. VIPRs should use the
     TSIs’ professional strengths while educating and familiarizing
     other VIPR participants about the surface modes. Additionally,
     with a significant portion of the TSIs’ time dedicated to VIPR, it
     may be necessary for the STSIP to integrate its activities with
     VIPR exercises to complete many of its tasks.

     We recognize that there are challenges in planning VIPR exercises.
     VIPR exercises have a designated coordinator, and exercises can
     involve weeks of planning. Transit systems have specific
     agreements with TSA on how VIPR exercises will be carried out
     and some systems have not yet approved them. VIPR coordinators
     are often unfamiliar with the nature of TSI activities. However, in
     response to our draft report, TSA expounded on the potential role of
     TSIs and how VIPR exercises might better integrate TSI resources.




Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 11
Recommendations
       We recommend that the Administrator of the Transportation
       Security Administration:

       Recommendation #1: Assess how VIPR exercises can better use
       TSI resources and initiatives, then develop and execute a plan to
       conduct VIPR exercises that integrate TSI activities.


Management Comments and OIG Analysis
       TSA provided written comments on our draft report. We evaluated
       these comments and have made changes where we deemed
       appropriate. Below is a summary of TSA’s written response to the
       report’s first recommendation and our analysis. A copy of TSA’s
       complete response is included as appendix B.

       TSA’s Comments to Recommendation #1:

       TSA partially concurred with the recommendation. TSA agreed
       that TSIs and their unique expertise in mass transit and rail should
       be integrated into VIPR planning and deployment. TSA stated that
       it has addressed the potential role of TSIs in its VIPR Team
       Capabilities and Operational Deployment guide. TSA did not
       agree that TSIs’ comprehensive inspection activities, such as
       BASE and SAI reviews, should be integrated into VIPR
       operations. TSA considered that doing so would fundamentally
       alter the nature and meaning of VIPR operations. TSA stated that
       VIPRs are intended to supplement existing security activities at a
       mass transit or passenger rail agency by randomly and
       unpredictably integrating TSA’s capabilities for an added deterrent
       effect.

       OIG Analysis: We consider TSA’s actions generally responsive
       to the recommendation. We concur with TSA’s intentions to
       expand TSIs’ role in planning and deployment. In its action plan,
       TSA should describe how it is encouraging VIPR coordinators to
       use TSIs for these and other activities, provide evidence that TSIs
       are participating in them, and document their progress in meeting
       participation goals.

       We agree that the integration of regulatory inspections by TSIs
       would alter the nature and meaning of VIPR operations. We also


  Effectiveness of TSA’s Surface Transportation Security Inspectors

                              Page 12
             acknowledge the conflicting purposes of simultaneously
             conducting an operation and a full BASE assessment or a
             regulatory compliance inspection, should regulations be enacted.
             Based on TSA’s response, we clarified these points in the report’s
             discussion of VIPR teams.

             TSA has stated, and various documents support, its intentions to
             expand the role of TSIs in VIPRs and meet ambitious participation
             goals. The VIPR Concept of Operations and aforementioned
             deployment guide indicate that TSA is taking appropriate action.
             The VIPR Concept of Operations states that VIPR operational
             capabilities are law enforcement, screening, and inspection. The
             guidelines address the potential role of TSIs and identify
             observation and reporting, and collaborative efforts with transit
             and rail system officials to enhance their security baseline, as well
             as several other skills and capabilities that TSIs can bring to VIPR
             deployments.

             TSA can expand the role of TSIs even when they do not perform
             thorough or regulatory inspections. For example, TSIs are well-
             positioned to carry out station profiles and physical verification
             during a VIPR operation. TSA will be challenged to sufficiently
             integrate TSIs to meet participation goals. Beyond advanced
             planning and passive observation, we are not clear to what extent
             TSA is willing to ask TSIs to support VIPR operations. We urge
             TSA to continue to look critically at how TSIs fit within the VIPR
             mission.

             This recommendation is Resolved – Open.


Additional Surface Inspectors Are Needed to Perform Future
Tasks and Enhance Understaffed Field Offices
     TSA would benefit from expanding the TSI workforce to handle new
     duties and to augment thinly staffed field offices. The 9/11 Commission
     Act gave TSIs the authority to perform regulatory compliance inspections
     and to perform their duties in all surface modes. Additionally, our June
     2008 report, “TSA’s Administration and Coordination of Mass Transit
     Security Programs,” recommended that TSIs play a greater role in TSA’s
     grant programs.

     With a current force of approximately 100 inspectors, TSIs are almost
     exclusively used as assessors in the mass transit and freight rail modes.


        Effectiveness of TSA’s Surface Transportation Security Inspectors

                                    Page 13
Although TSA will hire 75 additional inspectors in 2008, it is dedicating
this increase in manpower to VIPR and is thinly deploying them across 34
new field offices. This will put field offices at risk because they will be
inadequately staffed to carry out current assessment duties or future
compliance duties when one inspector is unavailable.

TSA has not determined how many inspectors it needs for its future duties,
although it has requested an additional 102 inspectors for FY 2010. The
TSI force is small compared to other federal agencies with inspectors (see
figure 8). The Department of Transportation employs approximately
1,350 inspectors to perform safety inspections for the freight rail, pipeline,
and highway modes, and the Coast Guard has roughly 1,000 inspectors to
perform safety and security inspections for the maritime mode.

Figure 8. Federal Safety and Security Inspection Forces for Surface Modes
                    Federal Highway and Motor Carrier Safety Administration: 800 Inspectors
Department of       Federal Railroad Administration: 400 Inspectors
                    Pipeline and Hazardous Material Safety Administration: 150 Inspectors
Transportation      Federal Transit Administration: 0 Inspectors
                                                                                                  1,350
                                                                                                  1350
                                                                                                  Surface
                                                                                                  Safety
US Coast Guard                                                                                    Inspectors

                                                                            1,000
                                                                            1000
                                                                            Marine
                                                                            Safety and Security
Transportation Security Administration                                      Inspectors

           175
           175
           Surface

           Security

           Inspectors




        Surface Assessments and Regulatory Compliance

        Pending TSA rail regulations will require enforcement by TSIs.
        The proposed regulations would require rail entities to designate a
        security coordinator, report significant security incidents to TSA,
        and provide a secure chain of custody for hazmat. TSA officials
        said that they are waiting for the regulations to be published before
        reviewing whether the current force is adequate.

        TSIs have had little interaction with the pipeline industry, but TSA
        plans to use inspectors in this mode in FY 2009. The 9/11
        Commission Act requires that TSA review the 100 most critical
        pipeline operators. With only 11 employees, officials at TSA’s
        Pipeline Division said that they do not have the manpower to
        comply with the 9/11 Commission Act or enforce future



   Effectiveness of TSA’s Surface Transportation Security Inspectors

                                     Page 14
     regulations. A senior TSA official said that TSIs will be used to
     meet the requirements of the 9/11 Commission Act and other goals
     of the Pipeline Division in 2008 and 2009.

     TSA also is planning to assign responsibilities to TSIs in the
     highway and motor carrier modes. The 9/11 Commission Act
     requires that TSA perform a number of highway-related activities,
     including assessing the security risk of the trucking industry,
     documenting hazmat routes, and tracking sensitive materials.
     Additionally, officials from TSA’s Highway and Motor Carrier
     Division expressed interest in using TSIs for Corporate Security
     Reviews and enforcing future regulations. However, TSA has yet
     to develop plans to use TSIs in this mode. Highway and Motor
     Carrier Division officials said that highway regulations would
     require “hundreds of compliance inspectors.”

     With the exception of grant oversight, TSA officials believe there
     is little need for TSIs in the maritime transit mode. The U.S. Coast
     Guard has primary responsibility for security in this mode and has
     1,000 marine safety and security inspectors who enforce security
     regulations and conduct inspections.

     Grant Oversight

     Three surface-related grant programs may require TSI participation.
     TSA administers the Transit Security Grant Program, Trucking
     Security Grant Program, and Intercity Bus Security Grant Program.
     In FY 2008, DHS awarded grants for these programs in excess of
     $415 million. TSIs develop considerable asset-specific information
     through routine assessments and consultation with surface
     stakeholders. TSIs can physically verify the use of grant funds
     through direct observation, and TSI assessments can provide
     transparent substantiation for funding decisions.




Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 15
       Adding Manpower in Field Offices With Two or Fewer
       Inspectors

       The STSIP needs more inspectors at most of its field offices to
       ensure that work continues when one inspector is unavailable. Of
       the 54 TSI field offices, 30 have only two inspectors and 4 field
       offices have only one. When inspectors are in training or on leave,
       often field offices will have one or no inspectors. In 2007, 12.7%
       of inspectors’ time was dedicated to training and at least 5% of
       inspector’s time was reserved for personal leave.

       According to STSIP performance reports, most field inspection
       time is dedicated to activities that require at least two experienced
       TSIs. For safety purposes, SAI reviews and other site visits to
       freight rail facilities require the participation of at least two TSIs
       who are sufficiently experienced in the freight rail mode.
       Additionally, BASE assessments require the participation of at
       least two TSIs who are familiar with the mass transit environment
       to ensure assessment accuracy. When one TSI is unavailable, most
       field offices are incapable of performing routine duties without
       borrowing inspectors from other field offices.

       Enforcing pending regulations also will involve site visits to
       freight rail facilities, which for safety purposes require two
       experienced TSIs. Pending regulations will require rail hazardous
       materials facilities within High Threat Urban Areas to apply an
       enhanced chain of custody and control measures when receiving or
       unloading hazardous materials. Experienced TSIs will need to
       visit these facilities to inspect and test compliance with this
       regulation.


Recommendations
       We recommend that the Administrator of the Transportation
       Security Administration:

       Recommendation #2: Examine how many inspectors are needed
       to perform necessary functions by assessing current and anticipated
       future duties, and then expand the TSI workforce to ensure that
       each field office has sufficient staffing.




  Effectiveness of TSA’s Surface Transportation Security Inspectors

                              Page 16
Management Comments and OIG Analysis

       TSA’s Comments to Recommendation #2:

       TSA concurred with the recommendation. TSA stated it has
       implemented an approach to maximize national coverage by TSIs.
       TSA stated that a minimum of two inspectors per office ensures
       the capability to meet security assessment, inspection, and support
       demands while maintaining operational safety. TSA noted that
       when one inspector is absent, a TSI from another office can fill the
       need. Additionally, TSA stated it has cross-trained 200 aviation
       and cargo inspectors to assist surface inspectors.

       OIG Analysis: TSA faces an important and difficult challenge
       fulfilling the requirements of the 9/11 Commission Act and
       increased expectations of its TSI workforce. TSA’s FY 2010
       STSIP budget request identifies numerous activities and
       responsibilities, such as inspection and assessment, that TSIs will
       be obligated to perform in the near future.

       We do not dispute that TSA is using, and will continue to use, a
       risk-based approach to allocate its TSI resources. We are more
       concerned that the STSIP is insufficiently staffed to meet current
       workload demands. At TSA’s request, we changed the wording of
       our recommendation from “determine” to “examine,” but simply
       stated that TSA should be planning with more precision how many
       inspectors it will need.

       An issue that may warrant further examination is the STSIP’s
       ability to adapt to situations when it must backfill a TSI locally. It
       is only one example among several that formed the basis for our
       recommendation. Although we did not assess the skills and
       abilities of non-surface inspectors cross-trained for such situations,
       AFSDs–Surface are reporting that aviation and cargo inspectors
       are incapable of performing most surface inspector duties and that
       it would be unsafe for them to substitute for surface inspectors in a
       freight rail environment. As a result, we believe that STSIP
       operations are still vulnerable in these situations. Furthermore,
       FSDs have exacerbated this problem by hiring surface inspectors
       without mass transit or freight rail experience. TSA claims that
       two TSIs are needed per office to maintain operational safety, yet
       four field offices have only one inspector.




  Effectiveness of TSA’s Surface Transportation Security Inspectors

                              Page 17
             We acknowledge that TSA may be waiting for regulations to take
             effect before increasing its current workforce. Accordingly, in its
             action plan, TSA should describe the steps it is taking to assess the
             number of inspectors needed to perform both current and future
             functions.

             This recommendation is Unresolved – Open.


Command Structure Inhibits Surface Inspector Effectiveness
     The current TSI command structure inhibits TSI effectiveness. In
     December 2006, TSA shifted from a system where TSIs reported to
     surface-focused supervisors to a system where TSIs report to aviation-
     focused supervisors. As a result, TSIs who do not have appropriate
     surface experience have been hired, and TSIs have been tasked with non-
     surface related tasks. These actions are affecting the quality and morale of
     the work force.

             The Transportation Surface Inspector Command Structure

             Although TSA’s Operation Directives 400-54-3 prescribes a single
             chain of command, to surface inspectors their chain of command is
             much less clear due to the current organizational structure and
             nature of communication between headquarters and field
             personnel. The STSIP office at TSA headquarters determines the
             mission and tasks of surface inspectors, but the inspectors
             ultimately report to an FSD in a nearby airport. The FSD is the
             senior TSA official at an airport and is responsible for providing
             operational leadership for transportation security responsibilities.
             Pursuant to TSA’s Delegation of Authority 400.1, the FSD is also
             responsible for assessing threats to transportation systems and
             enforcing regulations within his or her area of responsibility.
             Where an FSD’s area of responsibility is expanded outside of the
             airport, the FSD has responsibility over other surface modes.

             TSA has made two major revisions to the program’s organizational
             structure. Originally, TSIs in the field reported to a supervisory
             TSI, who reported directly to the STSIP office at TSA
             headquarters (see figure 9).




        Effectiveness of TSA’s Surface Transportation Security Inspectors

                                    Page 18
     Figure 9. Original TSI Command Structure




     In December 2006, TSA reorganized the program to match the field
     command model for aviation and cargo inspectors. Supervisory
     TSIs became AFSDs–Surface who report to the local FSD. The
     FSD is the administrative manager, but the STSIP headquarters
     office still sets the priorities and provides the budget resources for
     the inspectors in the field. AFSDs–Surface, therefore, effectively
     have two chains of command.

     In May 2008, TSA made further changes. In primary field offices
     that have an AFSD–Surface, TSIs report to that individual. In
     satellite field offices without an AFSD–Surface, inspectors report
     to the local Assistant Federal Security Director – Inspections
     (AFSD–Inspections). However, the AFSD–Surface at the nearby
     primary field office still mentors and advises all surface inspectors
     within that area, even when they are not under his or her direct
     command. Under this structure, 55 (37%) of TSIs report to an
     AFSD–Surface, and the remaining 95 (63%) report to an aviation-
     focused AFSD–Inspections (see figure 10).




Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 19
     Figure 10. Current TSI Command Structure




     FSD Involvement in STSIP

     We observed several problems regarding FSDs’ involvement with
     the STSIP that have led to tension and confusion over the
     program’s chain of command. At the TSA Administrator’s
     direction, FSDs are responsible for the security of all transportation
     modes in their assigned region. However, the FSD position is
     primarily focused on aviation security, which limits FSDs’ ability
     to engage the surface modes. TSA officials agreed that FSDs have
     historically focused most of their attention on the security of their
     airports. According to officials, this is most prevalent in cities
     with major airports, where the FSD’s aviation duties consume
     more time. These major airports also tend to be located in cities
     with major mass transit systems or freight rail operations. The
     surface mode is a second-tier priority for many FSDs, and the FSD
     position description does not mention surface responsibilities.

     Second, FSDs generally lack a surface transportation background.
     TSA has taken steps to educate FSDs on the surface modes, such
     as requiring that they attend the Transportation Technology Center


Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 20
     Inc. in Pueblo, Colorado, to familiarize themselves with rail
     operations. One of TSA’s justifications for the initial realignment
     of the STSIP was that it would “enhance the domain awareness
     capabilities of FSDs in all surface transportation modes.”
     However, according to most AFSDs–Surface, this has not occurred
     to any great extent. Many AFSDs–Surface said that their FSD is
     not heavily engaged in surface transportation security, deferring to
     the AFDs–Surface subject matter expertise and allowing TSIs to
     operate without interference.

     Third, FSDs have not always shown the same deference when
     hiring TSIs. FSDs have hired people who do not have surface
     experience for senior TSI positions. Following the reorganization
     in December 2006, the local FSD assumed hiring authority for all
     new TSI personnel. Since that time, FSDs have hired 18 surface
     inspectors. In some cases, the AFSD–Surface was involved in the
     hiring process, but several said that the FSD did not include them.
     Several also said that the FSD hired someone other than the first
     choice of the AFSD–Surface. These new hires had not worked in a
     rail or mass transit environment. Of the 18 inspectors hired, 5
     were entry-level positions. Of the remaining 13 positions, FSDs
     filled 9 (69%) of the positions with individuals with no rail or mass
     transit experience (see figure 11).

     Of the nine individuals hired with inadequate surface experience,
     four were Transportation Security Inspectors – Aviation, two were
     Security Instructors, two were Transportation Security Officers
     (screeners), and one was a hazmat truck driver. With the exception
     of the truck driver, these hires were reassigned to their new
     positions without open competition. In one case, a D-band
     screener who had been with TSA for less than 4 months was
     reassigned to an H-Band TSI position, receiving a raise of more
     than $27,000. The hazmat truck driver was hired to an I-Band
     position after completing a knowledge, skills, and ability
     assessment with incorrect information.




Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 21
                            Figure 11. TSI Hires, December 2006–July 2008
                                                Competitive Hires           Non-Competitive Hires



                            I Band
                            Annual salary:
                            $67,707 - $86,857
                            plus locality
                            adjustment


                            H Band
                            Annual salary:
                            $45,965 - $71,225
                            plus locality
                            adjustment


                            G Band
                            (Entry Level)
                            Annual salary:
                            $37,683 - $58,388
                            plus locality
                            adjustment
                                                                Hire With Previous Rail or Mass   Hire With No Previous Rail

                                                                Transit Experience                or Mass Transit Experience




                            The TSI program benefits when new hires have prior surface
                            transportation experience. Rail yards are inherently dangerous
                            places, with a number of safety considerations. TSIs told us that
                            even the extensive training they receive cannot supplant years of
                            safety-conscious experience. One AFSD–Surface said that he did
                            not feel comfortable with his new TSIs entering the rail yard
                            without an experienced TSI present. Also, TSIs who bring an
                            existing network of contacts within the surface transportation mode
                            will be much more effective as a liaison. While TSA has
                            successfully hired junior TSIs without previous surface experience,
                            both AFSD–Surface and TSA headquarters personnel expressed
                            concerns about senior TSIs coming aboard without appropriate
                            experience in rail. Congress echoed these concerns in the 9/11
                            Commission Act, which states that “surface transportation security
                            inspectors [are required to] have relevant transportation experience
                            and other security and inspection qualifications.”3

                            Fourth, FSDs have tasked TSIs with non-surface-related tasks. In
                            several cities, FSDs have tasked TSIs with airport assignments,
                            such as handing out plastic bags at the security checkpoints or
                            monitoring the checkpoint exit lane. While FSDs have the
                            authority to reassign all of their assets during periods of heightened
                            alert or increased threat, there is no indication that these taskings

3
    Public Law 110-53 section 1304(d)



                       Effectiveness of TSA’s Surface Transportation Security Inspectors

                                                   Page 22
       took place during such a time. Rather, most of the non-surface­
       related tasks seemed to have stemmed from manpower issues at the
       airport. TSIs reported that these activities lowered morale,
       affected their relationship with their FSD, and ultimately served as
       a poor use of their expertise. These activities also illustrate the
       airport focus of the FSD.

       STSIP headquarters officials informally communicate priorities to
       the AFSD–Surface, with little notification or engagement on the
       part of FSDs. A majority of TSIs are not actually reporting to their
       current supervisor, the AFSD–Inspections, but instead look to their
       previous supervisor, an AFSD–Surface, for direction. As one
       AFSD–Surface said, “The only thing [the AFSD–Inspections] is
       doing now is signing their timecards.”

       Although TSIs are able to complete assigned tasks while officially
       reporting to the FSDs, the structural, morale, and hiring problems
       that we observed are detrimental to the STSIP. Only 4% of TSIs
       and only 1 of the 11 AFSDs–Surface preferred to retain the current
       chain of command. Despite TSIs’ concerns about their chain of
       command and management of the program, TSA headquarters
       officials said that the existing system is adequate.


Recommendations
       We recommend that the Administrator of the Transportation
       Security Administration:

       Recommendation #3 (revised): Eliminate practices that
       undermine efforts to establish a more transparent chain of
       command. Instruct the STSIP office to direct new policies and
       actions to FSDs for implementation and require FSDs to solicit
       comments from AFSDs prior to hiring surface inspectors.


Management Comments and OIG Analysis

       TSA’s Comments to Recommendation #3:

       TSA did not concur with our original recommendation to place the
       Transportation Security Inspectors–Surface under the direct
       authority of a TSA headquarters official who is responsible for
       surface transportation, such as the Office of Security Operations’


  Effectiveness of TSA’s Surface Transportation Security Inspectors

                              Page 23
     Assistant General Manager for Compliance. TSA stated that it has
     chosen its command structure because FSDs are better able to use
     the security network in the area. TSA noted that FSDs frequently
     interact with state and local law enforcement and mass transit
     operators. TSA believes that FSDs understand the vulnerabilities
     and challenges of the mass transit modes “in their backyard.”

     TSA stated that the OIG relied largely on data collected during a
     prior audit. TSA believes that its reporting lines are clear and are
     described in Operational Directive 400-54-3. The STSIP informs
     FSDs of TSI priorities via written directives and communications
     distributed electronically through the Office of Security
     Operations’ Leveraging Information, Networks, and
     Communication system. The STSIP also provides FSDs with
     weekly written reports on key activities. AFSDs–Surface
     participate in a weekly national conference call hosted by the
     STSIP, and AFSDs and local lead TSIs are required to attend FSD
     meetings and routinely report STSIP activities to FSDs.

     OIG Analysis: This review was distinct from our inspection and
     report, Transportation Security Administration’s Administration
     and Coordination of Mass Transit Security Programs. That review
     covered June to October 2007. The period for this review was
     February to July 2008 and consisted of completely new interviews
     and site visits. We referenced one statement from the previous
     review—only 4% of TSIs preferred to retain the current chain of
     command.

     Our June 2008 report, “TSA’s Administration and Coordination of
     Mass Transit Security Programs,” recommended that TSA should
     return the TSIs to the direct authority of a TSA headquarters
     official who is responsible for surface transportation. TSA did not
     concur with the recommendation, which was unresolved at the start
     of this review. We reexamined the issue during this review and
     again recommended in our draft report that TSA return the TSIs to
     the direct authority of a headquarters official who is responsible for
     surface transportation. Despite our new analysis and updated
     reporting of this issue, TSA reiterated its position that the present
     TSI command structure does not inhibit TSI effectiveness.

     The STSIP chain of command still operates differently than
     described in Operational Directive 400-54-3. For example, the
     directive does not mention the program’s weekly national
     conference call, yet this is an essential part of the TSI command



Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 24
     structure. AFSDs–Surface and local lead TSIs are tasked directly
     from the STSIP through the weekly national call and by the FSDs.
     TSA acknowledged that AFSDs–Surface participate in the STSIP
     office’s conference call and must inform FSDs within their
     respective regions of new or changing processes in STSIP
     programs. The confluence of communication occurring between
     headquarters and field personnel during such calls speaks to the
     very heart of the issue.

     We also reported several problems regarding FSDs involvement
     with the STSIP that have led to tension and confusion regarding
     the program’s chain of command. The FSD position is primarily
     focused on aviation security, and FSDs generally have minimal
     surface transportation background, both of which limit FSDs’
     ability to engage the surface modes. In addition, FSDs have hired
     people for senior TSI positions who do not have surface experience
     and have tasked TSIs with non-surface-related tasks.

     We again sought to convince TSA to place TSIs under the direct
     authority of a TSA headquarters official responsible for surface
     transportation. However, in the absence of a commitment from
     TSA management to modify its command structure, we have
     retracted our original recommendation and instead are
     recommending that TSA eliminate practices that undermine efforts
     to establish a more transparent chain of command. In both the exit
     conference and its response, TSA signaled that it is trying to
     strengthen communication between headquarters and TSIs. In its
     action plan, TSA should describe how it is improving FSD
     involvement in the STSIP.

     This recommendation is Resolved – Open.




Effectiveness of TSA’s Surface Transportation Security Inspectors

                            Page 25
Appendix A
Purpose, Scope, and Methodology

            As directed by the 9/11 Commission Act, we evaluated the performance
            and effectiveness of TSA’s Transportation Security Inspectors–Surface
            and whether there is a need for additional inspectors. The act states:

                    “Not later than September 30, 2008, the Department of Homeland
                    Security Inspector General shall transmit a report to the appropriate
                    congressional committees on the performance and effectiveness of
                    surface transportation security inspectors, whether there is a need for
                    additional inspectors, and other recommendations.”

            We conducted our fieldwork from February to July 2008. We interviewed
            representatives from TSA’s Office of Transportation Sector Network
            Management, Office of Law Enforcement, Office of Field Operations, and
            Transportation Security Operations Center. We spoke with all 11 AFSD–
            Surface, 6 FSDs, 2 AFSD–Inspections, and several TSIs. We also spoke
            with officials and inspectors from the U.S. Coast Guard and the
            Department of Transportation’s Federal Railroad Administration, Federal
            Transit Administration, Pipeline and Hazardous Material Safety
            Administration, and Federal Motor Carrier Safety Administration.

            In addition to testimonial evidence from interviews, we examined:
            �	 Laws, regulations and security directives relevant to surface
                transportation, and federal authorities and responsibilities;
            �	 Memorandums and directives documenting reorganizations and
                personnel changes within TSA;
            �	 Documentation on the VIPR program;
            �	 Sample BASE reviews, SAI reviews, and station profiles;
            �	 Sample weekly status reports and monthly performance reports on the
                activities of TSIs; and
            �	 TSI personnel files.

            We also observed:
            �	 TSIs conducting a BASE review;
            �	 TSIs conducting an SAI review; and
            �	 TSIs participating in a VIPR exercise.

            This review was conducted under the authority of the Inspector General
            Act of 1978, as amended, and according to the Quality Standards for
            Inspections, issued by the President’s Council of Integrity and Efficiency.




               Effectiveness of TSA’s Surface Transportation Security Inspectors

                                           Page 26
Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 27 

Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 28

Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 29

Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 30

Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 31

Appendix B
Management Comments to the Draft Report




               Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                            Page 32

Appendix C
Freight Rail Security Action Items

Department of Homeland Security and the Department of Transportation Freight
Rail Security Action Items

System Security Practices Affecting the Transportation of TIH Materials
1. Designate an individual with overall responsibility for hazardous materials transportation security
planning, training, and implementation. This individual should report directly to an executive officer of the
company. Designate an individual with overall responsibility for security planning and countermeasure
implementation for company-designated critical infrastructure.

2. Conduct exercises, at least annually, to verify the effectiveness of security plan(s).

3. Develop and conduct an internal or external company audit program to independently verify that the
security plan is being implemented effectively. The audit process should include a policy for record
keeping of the audit and a method for management review and performance measurement.

4. Identify and then annually review company-designated critical infrastructure. Ensure that changes or
additions to the operating environment have been properly addressed.

5. Maintain a communications network to receive timely government notices of current threat conditions
and available intelligence information. Adjust security measures as necessary to reflect current threats and
vulnerabilities based on available information.

6. Make use of opportunities to establish liaison and regular communication with federal, state, and local
law enforcement, emergency responders, security agencies, and industry partners. Strive to make local law
enforcement aware of railroad security issues.

7. Establish liaison and collaboration with other railroad security offices to promote information sharing
and security enhancements.

8. As with industry safety programs, regularly reinforce security awareness and operational security
concepts to all employees at all levels of the organization.

9. Reinforce the need for employees to immediately report to the proper authorities all suspicious persons,
activities, or objects encountered.

10. Have contingency plans in place to supplement company security personnel to protect company-
designated critical infrastructure as threat conditions warrant, such as contracts to engage private security
guard providers or procedures to request supplemental physical security assistance of federal, state, local,
and tribal authorities.

11. Restrict access to information controlled by the railroad that it determines to be sensitive, in particular
information about hazardous materials shipments and security measures.

12. Make available emergency response planning materials and, when requested, work with local
communities to facilitate their training and preparation to deploy and respond to an emergency or security
incident.

13. Cooperatively work with federal, state, local, and tribal governments to identify, through risk
assessments, the locations where security risks are highest. Cooperatively work with federal, state, local,
and tribal governments to identify and implement protective measures at these locations.

Access Control Security Practices



                       Effectiveness of TSA’s Surface Transportation Security Inspectors

                                                    Page 33
Appendix C
Freight Rail Security Action Items


14. Focus proactive community safety and security outreach and trespasser abatement programs in areas
adjacent to company-designated critical infrastructure to reduce the likelihood of unauthorized individuals
on company property and to enhance public awareness of the importance of reporting suspicious activity.

15. To the extent feasible and practicable, use photo identification procedures for company-designated
critical infrastructure. Establish procedures for background checks and safety and security training for
contractor employees with unmonitored access to company-designated critical infrastructure.

16. To the extent feasible and practicable, and as threat conditions warrant, restrict the access of contractors
and visitors at nonpublic areas of company-designated critical infrastructure, and monitor the activities of
visitors in or around such infrastructure.

17. Establish employee identification measures for all employees. Conduct spot checks of identification as
threat conditions warrant.

18. Implement measures to deter unauthorized entry and increase the probability of detection at company-
designated critical infrastructure as threat conditions warrant. To the extent that patrols are used, vary the
pattern and schedule to avoid predictability.

19. Use interlocking signals and/or operating rules to prevent trains from occupying moveable bridges until
the bridges are locked in place.

En-Route Security Practices

20. Maintain systems to locate rail cars transporting TIH materials in a timely manner to implement
security measures when necessary and provide information on the location of rail cars carrying TIH
materials to Department of Homeland Security (DHS) and Department of Transportation (DOT), as
requested, in case of events of national significance.

21. During required on-ground safety inspections of cars containing TIH materials, inspect for any apparent
signs of tampering, sabotage, attached explosives, and other suggested items. Train employees to
recognize suspicious activity and report security concerns found during inspections.

22. Provide local authorities with information on the hazardous materials transported through their
communities consistent with Association of American Railroads (AAR) Circular OT-55.

23. Consider alternative routes when they are economically practicable and result in reduced overall safety
and security risks. Work with the DHS and DOT in developing better software tools to analyze routes.

24. In rail yards, to the extent feasible, place cars containing TIH materials where the most practical
protection can be provided against tampering and outside interference when appropriate for the threat level
in the geographic area, in accordance with the AAR Security Management Plan.

Supplemental Security Action Item No. 1

Rail carriers with operations in High Threat Urban Areas (HTUA) will develop site-specific security plans
that address the security of the transportation in bulk of TIH material in loaded rail cars (“TIH cars”) in
HTUA. The site-specific security plan should include specific and detailed measures to enhance the
security of TIH cars in the carrier’s custody. These plans should be completed within 90 days of the
issuance date of the guidelines.




                      Effectiveness of TSA’s Surface Transportation Security Inspectors

                                                    Page 34
Appendix C
Freight Rail Security Action Items

The site-security plan will address the following objectives for railroad operations within HTUA:

1. Reduce the number of hours that TIH cars are held in yards, terminals, and on railroad-controlled leased
track in HTUA.

2. Minimize the occurrence of unattended TIH cars in HTUA.

3. Reduce potential exposure to surrounding people, property and environment in HTUA. Special
emphasis should be placed on reducing potential exposure to hospitals, high-occupancy buildings, schools,
and public venues.

4. Reduce the occurrence of standing TIH trains in HTUA.

5. Provide a procedure for the protection or surveillance of unattended TIH trains in HTUA

6. Ensure compliance with CFR 49 Part 174.14 (48-hour rule).

7. Develop site-specific procedures for the positive and secure handoff of TIH cars at points of origin,
destination, and interchange in HTUA.

Supplemental Security Action Item No. 2

Rail carriers will not operate trains carrying TIH within a specified distance of public venues with National
Special Security Events in progress and as requested by the appropriate agency responsible for overall
event security coordination.

Supplemental Security Action Item No. 3

Rail carriers will, in the security planning process, identify and select areas throughout the carrier’s system
where cars containing TIH can be moved and held when threat conditions warrant. Risk and exposure to
the general public are factors to be considered in the selection process. The rail carrier will provide this
information to the government upon request.




                      Effectiveness of TSA’s Surface Transportation Security Inspectors

                                                    Page 35
Appendix D
Major Contributors to this Report


                     William McCarron, Chief Inspector, Department of Homeland
                     Security, Office of Inspections

                     Preston Jacobs, Inspector, Department of Homeland Security,
                     Office of Inspections

                     Tristan Weir, Inspector, Department of Homeland Security,
                     Office of Inspections




                Effectiveness of TSA’s Surface Transportation Security Inspectors

                                            Page 36
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator, Transportation Security Administration
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                Effectiveness of TSA’s Surface Transportation Security Inspectors 


                                             Page 37 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
